STATEMENT OF SERVICE
Case No. 19A960
Case Title:

Wolf v. Innovation Law Lab

Type of Document:

Respondents’ Opposition to Application for Stay

Date documents were filed via the U.S. Supreme Court’s electronic filing system:
March 9, 2020 by 4:00pm
Date documents were emailed to the Court and opposing counsel:
March 9, 2020
Date documents were sent via overnight UPS to the Court and opposing counsel:
March 9, 2020
Name, addresses and email addresses of individual served:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

/s/ Judy Rabinovitz
Judy Rabinovitz
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
212-549-2618
jrabinovitz@aclu.org

